                    University of Texas at El Paso
                        500 West University
                        El Paso, Texas 79968


National Science Foundation Cooperative Agreement Number ESR-9908105

                          Financial Schedule

                                 and

                    Independent Auditor’s Reports


           For the period September 1, 1999 to June 30, 2001
                                University of Texas at El Paso

                                      Table of Contents


                                                                    Page

Section I - Introduction and Audit Results:
       Background                                                    1
       Audit Objectives, Scope, and Methodology                      1
       Summary of Audit Results                                      2
       Follow-up of Prior Audit Findings                             2
       Exit Conference                                               2

Section II - Independent Auditor’s Reports:
       Independent Auditor’s Report on the Financial Schedule        4
       Independent Auditor’s Report on Compliance                    6
       Independent Auditor’s Report on Internal Control Structure    7

Section III - Financial Schedule:
       Schedule A – Schedule of Award Costs                          9
       Notes to the Financial Schedule                               10

How to Contact the Office of Inspector General                       12
          SECTION I

INTRODUCTION AND AUDIT RESULTS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230



                                         BACKGROUND

       We audited the funds awarded by the National Science Foundation (NSF) to the
University of Texas at El Paso (UTEP) under Cooperative Agreement No. ESR-9908105, for the
period September 1, 1999 through June 30, 2001. This award to UTEP provides assistance to the
El Paso Urban Systemic Program (USP), a three-district collaboration with UTEP as the
sponsoring entity. The collaboration is between the El Paso Independent School District, Ysleta
Independent School District, and Socorro Independent School District. The purpose of the
award is to stimulate dramatic improvement in (1) teaching and learning that leads to high
achievement in challenging science and mathematics by all students, enabling significantly more
students to pursue careers in science, mathematics, and technology (SMT); (2) establish and
expand a unified system of coalitions that link students, teachers, families, and community
members in El Paso’s USP educational institutions with the city’s vast and diverse resources in
meaningful ways; and (3) establish an infrastructure that aligns the districts’ policies, procedures,
organizational structures, curricula, professional development and evaluation systems, and
resources in order to sustain the highest quality of student learning of rigorous SMT.

       The award is granted for the period from September 1, 1999 through August 31, 2004.
NSF intends to provide up to $11,500,000 and UTEP agreed to provide cost sharing in the
amount of $27,516,662 to support the project for the entire award period. Under the agreement,
NSF through August 31, 2002 has agreed to provide UTEP a total of $8,312,875, but only
authorized cumulative expenditures of $5,599,850 through August 31, 2001. Although no cost
sharing amount was specified in the agreement for each year of the award, UTEP budgeted
$11,311,912 for its cost sharing from September 1, 1999 through August 31, 2001. From
September 1, 1999 through June 30, 2001, UTEP has claimed costs aggregating $2,913,753, as
NSF funding and $9,768,256, as its cost sharing.

                    AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of our audit were to determine whether:

               •   Costs charged to the NSF award by UTEP are allowable, allocable,
                   and reasonable, in accordance with the applicable Federal cost
                   principles and award terms and conditions; and

               •   UTEP's systems of internal controls are adequate to properly
                   administer, account for, and monitor its NSF awards in compliance
                   with NSF and Federal requirements.



                                                 1
       Our audit was made in accordance with generally accepted auditing standards, the
Government Auditing Standards (1994 Revision) issued by the Comptroller General of the
United States, and the NSF Audit Guide (September 1996). Consequently, we planned and
performed the audit to obtain reasonable assurance about whether the amounts claimed to NSF as
presented in the schedule of award costs (Schedule A), are free of material misstatement. Our
audit also assessed the accounting principles used and significant estimates made by the
Awardee and evaluated the overall financial schedule presentation.

        To achieve our audit objectives, we examined, on a test basis, evidence supporting the
amounts and disclosures in Schedule A. Based on an assessment of risk, we selected a
nonstatistical sample of costs claimed under the award to test for compliance with Federal award
requirements. Based upon this sampling method, questioned costs in this report may not
represent total costs that may have been questioned had all expenditures been tested. In addition,
we have made no attempt to project such costs to total costs claimed, based on the relationship of
costs tested to total costs. However, we believe our audit provides a reasonable basis for our
opinion.

                              SUMMARY OF AUDIT RESULTS

        Our audit of the financial report submitted by UTEP to NSF on the following award did
not disclose any cost UTEP charged to award ESR-9908105 that was not allowable, allocable,
and reasonable, in accordance with the applicable Federal cost priciples and award terms and
conditions. Therefore, we did not identify any questioned cost. Questioned costs are costs for
which there is documentation that the recorded costs were expended in violation of the law,
regulations or specific conditions of the award or those costs which require additional support by
the Awardee or which require interpretation of allowability by the NSF – Division of Acquisition
and Cost Support.

                                             Award          Claimed        Questioned
       NSF Award Number                      Budget          Costs           Costs

       ESR-9908105                         $5,599,850      $2,913,753       $    -0-

       The audit also found UTEP's systems of internal controls to be reasonably adequate to
properly administer, account for, and monitor its NSF award in compliance with NSF and
Federal requirements.

                         FOLLOW-UP OF PRIOR AUDIT FINDINGS

        There was no prior audit of NSF awards to UTEP. UTEP's Fiscal Year 2000 Office of
Management and Budget Circular A-133 audit did not include this award as a major program and
did not also have any internal control or compliance findings that would impact on NSF.

                                     EXIT CONFERENCE

       An exit conference was held on January 28, 2002 at UTEP’s office located at 500 West
University, El Paso, Texas. UTEP was informed that no findings or recommendations would be
reported.


                                                2
For University of Texas at El Paso
      XXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXX
      XXXXXXXXXXXXXXXXXXXXXX

For McBride, Lock & Associates
      XXXXXXXXXXXXXXXXXXX




                                     3
          SECTION II

INDEPENDENT AUDITOR'S REPORTS




              4
    SECTION III

FINANCIAL SCHEDULE
                                                                                         SCHEDULE A




                           University of Texas El Paso
            National Science Foundation Award Number ESR-9908105
                            Schedule of Award Costs
                     From September 1, 1999 to June 30, 2001
                                     Interim



                                                                        (A)
                                               Approved               Claimed            Questioned
          Cost Category                        Budget                  Costs              Costs

Direct costs:-
Salaries & Wages                         $ XXXXXXX                $    XXXXXXX                    0
Fringe Benefits                              XXXXX                     XXXXX                      0
Travel                                       XXXXX                     XXXXX                      0
Participant Support                          XXXXX                         X                      0
Materials & Supplies                         XXXXX                     XXXXX                      0
Publication Costs                            XXXXX                         X                      0
Consultant Services                          XXXXX                     XXXXX                      0
Subawards                                   XXXXXX                    XXXXXX                      0
Other                                        XXXXX                     XXXXX                      0

 Total Direct Costs                           $ 5,434,259          $ 2,786,533                   $0

 Indirect Costs                                      165,591           127,220                   $0

 Total Costs                                $ 5,599,850            $ 2,913,753                   $0

 Awardee Matching Share                      $ 11,311,912          $ 9,768,256                   $0

(A) The total representing costs claimed agrees with the expenditures reported on
the Federal Cash Transactions Report - Federal Share of Net Disbursements as of the
   quarter ended June 30, 2001. Claimed costs reported above were taken directly
   from the Awardee's book of account.




               The accompanying notes are an integral part of this financial schedule.




                                                 0
                               University of Texas at El Paso
                               Notes to the Financial Schedule
                           From September 1, 1999 – June 30, 2001


1.     Summary of Significant Accounting Policies:

Accounting Basis

The accompanying financial schedule has been prepared in conformity with National Science
Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
NSF. The basis of accounting utilized in preparation of these reports differs from generally
accepted accounting principles. The following information summarizes these differences:

A.     Equity

       Under the terms of the award, all funds not expended according to the award agreement
       and budget at the end of the award period are to be returned to NSF. Therefore, the
       awardee does not maintain any equity in the award and any excess of cash received from
       NSF over final expenditures is due back to NSF.

B.     Equipment

       Equipment purchases were not provided for in the NSF award.

C.     Inventory

       Minor materials and supplies are charged to expense during the period of purchase. As a
       result, no inventory is recognized for these items in the financial schedule.

2.     Income Taxes

       University of Texas at El Paso is a part of the government of the State of Texas and is
       exempt from income taxes under the Internal Revenue Code.

3.     NSF Cost Sharing and Matching

       As set forth in the grant award, the approved cost sharing was as follows:

                                         National             Total
                       Cost              Science             Project
                      Sharing           Foundation           Budget

                    $11,311,912         $5,599,850        $16,911,762




                                               10
4.   Indirect Cost Rate:

     •      Type of rate authorized for award – predetermined fixed rate of 8%.
     •      Period of rates – September 1, 1999 to August 31, 2004.
     •      Indirect cost rate used to claim cost – based on total direct costs.




                                            11
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

           Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100

    Toll-free Anonymous Hotline
           1-800-428-2189

               Fax
           703-292-9158

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 12
